No. 20-7238
IN THE

SUPREME COURT OF THE UNITED STATES
ALBERTO JULIO GARCIA,
Petitioner
v.

STATE OF MISSISSIPPI,
Respondent

CERTIFICATE OF SERVICE

Undersigned counsel hereby certifies that a true and correct copy of
Respondent the State of Mississippi’s Brief in Opposition, filed in the abovecaptioned matter, has been served on opposing counsel by electronic mail to
adegr@ospd.ms.gov and by depositing one copy of the same in the United
States Mail, first-class postage prepaid, addressed as follows:
Andre de Gruy
Alison Steiner
Office of the State Public Defender
Capital Defense Counsel Division
239 N. Lamar Street, Suite 601
Jackson, MS 39201
This, the 23rd day of April, 2021.

1

By:

/s/ Candice Leigh Rucker
Candice Leigh Rucker
Special Assistant Attorney General
Mississippi Attorney General’s Office
P.O. Box 220
Jackson, MS 39205
Candice.Rucker@ago.ms.gov

2

